<html>
<title> - THE SHOOTDOWN OF MALAYSIAN FLIGHT 17 AND THE ESCALATING CRISIS IN UKRAINE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   THE SHOOTDOWN OF MALAYSIAN FLIGHT 17 AND THE ESCALATING CRISIS IN 
                                UKRAINE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

                           Serial No. 113-192

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
88-914                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin<greek-l>--
    added 5/29/14 noon deg.
CURT CLAWSON, Florida<greek-l>--
    added 7/9/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ian Brzezinski, resident senior fellow, Brent Scowcroft 
  Center on International Security, Atlantic Council.............    10
Mr. Anthony Salvia, executive director, American Institute in 
  Ukraine........................................................    17
The Honorable William B. Taylor, vice president for Middle East 
  and Africa, United States Institute of Peace (former United 
  States Ambassador to Ukraine)..................................    24
Leon Aron, Ph.D., resident scholar and director of Russian 
  studies, The American Enterprise Institute.....................    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Ian Brzezinski: Prepared statement...........................    12
Mr. Anthony Salvia: Prepared statement...........................    20
The Honorable William B. Taylor: Prepared statement..............    26
Leon Aron, Ph.D.: Prepared statement.............................    32

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable William Keating, a Representative in Congress from 
  the Commonwealth of Massachusetts: Material submitted for the 
  record.........................................................    56


   THE SHOOTDOWN OF MALAYSIAN FLIGHT 17 AND THE ESCALATING CRISIS IN 
                                UKRAINE

                              ----------                              


                         TUESDAY, JULY 29, 2014

                       House of Representatives,

       Subcommittee on Europe, Eurasia, and Emerging Threats and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:13 a.m., 
in room 2172, Rayburn House Office Building, Hon. Dana 
Rohrabacher [chairman of the Subcommittee on Europe, Eurasia, 
and Emerging Threats] presiding.
    Mr. Rohrabacher. I call this hearing, entitled ``The 
Shootdown of the Malaysian Flight 17 and the Escalating Crisis 
in Ukraine,'' to order. Without objection, all members will 
have 5 legislative days to submit additional written questions 
or extraneous material for the record.
    On July 17th, a civilian airliner flying over Ukraine 
crashed into a field about 30 miles from the Russian border. 
All 298 people aboard tragically lost their lives. Today, 
before we do anything else, let us make it clear that we all 
extend our sympathy to the families of those victims of that 
crash. There are 298 families at least who are now in deep 
mourning and suffering, and they have our sympathy and our 
thoughts and prayers today.
    Our world today seems overwhelmed with such turmoil. On 
each continent there are various groups battling each other who 
are willing to use force and kill others in order to change the 
status quo or to protect the status quo. We see this today, but 
we also saw this through the 40 years of Cold War that is 
within our memory. During that time, people in Hungary, 
Vietnam, Czechoslovakia, and so many other trouble spots were 
caught up in local differences and local power struggles that 
had far-reaching, way beyond their borders implications.
    Today, Ukraine and Russia are in transition from what is 
what, and to who knows what is going to happen, but it is a 
transition, and that transition makes for volatility and 
undermines the stability, yes, it undermines the stability of 
the world and threatens world peace.
    I intend this hearing today to be a balanced hearing, a 
dialogue, not a diatribe against any point of view. We have 
assembled a panel of experts on Russia and the region with a 
goal of learning the facts and getting a better understanding 
of the truth; hopefully, without bellicose rhetoric.
    Last year, before the upheaval started in Ukraine, Ukraine 
faced an economic meltdown. Its elected President, Viktor 
Yanukovych, had a choice between a somewhat long-term yet 
limited offer by the European Union or a deal with Russia which 
offered more money up front and long-term affordable energy. He 
took the Russian deal, not because he was bullied, as some 
anti-Russian commentators suggest. No, he took the deal because 
it prevented an immediate crisis and he had every right to make 
that as the elected leader of Ukraine, and it was a defendable 
decision.
    But because he was duly elected and not a Third World 
dictator, the Ukrainian people should have used the ballot box 
to express outrage and remove him from office if that was the 
will of the majority of the people of Ukraine. Instead, street 
violence, spontaneous or not is debatable, led to the elected 
leader fleeing Ukraine, undermining stability, the stability 
that we are supposed to see that comes with a democracy and 
comes with people accepting the electoral process.
    At the least, it is commendable in the last 6 months, since 
Yanukovych's removal, the people of Ukraine were given the 
chance to vote on installing a new President. The ongoing 
violence in Eastern Ukraine, however, can be traced right back 
to the violence and extralegal nondemocratic maneuvers of those 
who brought down that elected President. The ongoing violence 
is chaotic, and this needs to end. The chaos, the violence, no 
matter what preceded it, needs to stop now in Ukraine. The MH17 
shootdown should be a turning point for all sides. It is time 
for the guns to stop shooting and some thoughtful reevaluation 
to commence.
    This conflict is having serious, not just regional, but 
global consequences. For one time over the last few years, 
Russians and Americans, seem to be headed for a new Cold War. 
Igniting a new Cold War would be a tragedy for not only the 
people of the United States and Russia, but for the people of 
the world. We need to identify and implement policies that will 
bring the United States and Russia together as partners to 
solve problems and the serious challenges that we have and the 
threats that are posed to both of our countries.
    Restoring peace to Ukraine would be a good start in 
deterring a potential new Cold War and establishing perhaps 
some stability and peace in the world. So today's hearing, 
hopefully, will identify some of the areas of friction and 
maybe shed some light on the events in Ukraine that will help 
permit us to find solutions instead of fanning the flames of 
conflict.
    We have the witnesses who will be introduced just before 
their testimony, but today we have with us also the ranking 
member, Mr. Keating, and I would yield to him at this point for 
an opening statement on his part.
    Mr. Keating. Thank you, Mr. Chairman.
    The entire world was sickened by the video footage of so-
called separatists sacking the crash site of airline flight 17 
over Ukraine on July 17th; almost 300 people losing their 
lives. And I offer officially my deepest condolences to the 
families of those victims.
    This footage is well-documented, and we have been agonized 
over reports of bodies decaying in sweltering heat and 
allegations that separatists continue to disturb and destroy 
evidence at the crash site. Although the separatists eventually 
allowed international experts to retrieve most of the victims' 
bodies and the plane's black boxes, they have continued to 
prevent international monitors from accessing the crash site. 
This is completely unacceptable. It is essential that a full 
and transparent international investigation begin immediately 
and the fact that this crime must be established and the 
perpetrators must be brought to justice.
    What is most tragic about this disaster is that it was 
completely avoidable and completely unnecessary. Without 
prejudging the outcome of a widely hoped-for international 
investigation, it is entirely accurate to say that this tragedy 
is the direct result of Russian efforts to sew chaos and 
instability in Eastern Ukraine and in the wider Eastern 
European region.
    Shockingly, this horrific disaster has not stopped Russia 
from continuing to fuel the conflict in Ukraine. Russian forces 
are increasing weapon deliveries to separatists and even firing 
artillery against Ukraine troops from within Russia. Although 
it is well within President Putin's power to put an end to this 
fighting, he continues to insist he has no power over the so-
called separatists. Nothing could be further from the truth.
    The leaders of the so-called separatists in Eastern Ukraine 
are not Ukrainian citizens. They are Russian citizens. They are 
subject to Russian law. Their financing comes from Russia, as 
do their weapons. Even more troubling, they are trained Russian 
operatives who fought in Chechnya and worked covertly in 
Transnistria, Abkhazia, South Ossetia, and even the Balkans to 
destabilize democratically elected governments, like the 
current Ukraine Government, and keep them from strengthening 
ties with anyone but Russia.
    I support the administration's use of targeted sanctions in 
concert with our European allies to press Russia to end its 
support for so-called separatists in Eastern Ukraine. I am 
encouraged by the impending agreement by the EU to strengthen 
sanctions against Russia, and I look forward to the European 
leaders' decision, which can come as early as today. These 
measures are designed to show Mr. Putin what the world already 
knows, that it is well within President Putin's power to end 
this conflict.
    Yes, it is just not our steps or sanctions that are being 
closely examined, but our commitments to NATO and the 
transatlantic partnership that continue to be scrutinized by 
those who are threatening the ideals of rules of law, 
transparency, accountability, and indeed individual liberties.
    For this reason, I urge leaders on both sides of the 
Atlantic to move forward in setting the global standards for 
trade, health, environment, and labor by promoting the upcoming 
TTIP agreement and further would encourage increased dialogue 
on the future cooperative defense structures under the NATO 
umbrella as well. These institutions will carry our partnership 
into the future and offer a window for increased engagements 
with other like-minded partners throughout the world.
    For the immediate future, however, we owe it to the victims 
of MH17, and to the people of Ukraine, to press Mr. Putin to 
put an end to his bitter and wholly unnecessary proxy war, a 
sentiment that has wide agreement on both sides of the aisle in 
this body.
    With that, Mr. Chairman, I yield back.
    Mr. Rohrabacher. Thank you very much.
    We are honored today with the presence of the chairman of 
the full committee, Foreign Affairs Committee, Ed Royce, who we 
thank you for joining us, and thank you for your leadership in 
this committee. And we would hope that you might have some 
thoughts to share with us at this time.
    Mr. Royce. Thank you very much, Mr. Chairman, and thank 
you, Mr. Poe. I also want to extend my sympathy to the families 
who lost loved ones as a result of the downing of that 
airliner.
    I wanted to express my thanks to both of you, and the 
ranking member, and also to Mr. Poe for coming with us. 
Frankly, we flew into Eastern Ukraine, into this region, and 
into the province that is next to Donetsk several months ago in 
order to have a dialogue with the Russian-speaking people of 
that region, in order to get feedback from the NGO community, 
from the community in general. I will tell you we had 
discussions with Russian speakers, the women's groups, the 
minority groups, the Jewish community, the governor, the civil 
society types, the lawyers. And in listening to all of that 
dialogue, they communicated one grave concern to us. Their 
concern was in the weapons and the caliber and quantity of 
those weapons flooding in over the border.
    Now, General Breedlove also, who is the Allied Commander at 
NATO, expressed these same concerns, and this was months ago, 
and he informed us, he informed the U.S. Government that his 
concern was with the training that separatists were receiving 
inside Russia on this SA-11 missile system. His other concern 
was with these systems, as well as tanks, coming over the 
border from Russia and being put into the hands of separatists.
    Part of the concern about the way this is being done is 
because of the way in which these separatists are being 
recruited. They are being recruited on social media. And in the 
words of one U.S. official, every malcontent and skinhead who 
responds to this rhetoric in the Russian-speaking world, 
whether it is from Russia or Eastern Ukraine, who is recruited, 
is probably not the best soldier. It is not a well-trained 
soldier, certainly. And to put these types of individuals on an 
SA-11 system to shoot these systems is to run an enormous risk.
    Now, this was a tragic accident in terms of hitting a 
jetliner, in my view. That was not the target. The target was 
Ukrainian military planes, and 12 of which had been shot down, 
and I think several others since. But they are shot down with 
this system. They are shot down by these individuals. And when 
we say not properly trained, I don't think there is any 
question of that, because look for a minute to what happened in 
front of camera crews when these same separatists were guarding 
the site, the crash site. You notice that they took passports, 
they took Visa cards, they tried to use those Visa cards, 
unprofessional conduct. A soldier would not be doing this. They 
took someone's wedding ring. They took cell phones and made 
calls on those cell phones.
    This is the concern, this was the type of concern expressed 
to us by the governor on down in Dnepropetrovsk, the fact that 
we would have a motley crew like this. And another point they 
made is that, yes, some speak Ukrainian Russian, but a lot of 
them are Muscovites. They speak with a Moscow accent. They are 
not locals. They are people who have been recruited, been 
trained, rather poorly trained, and then thrown into this 
environment.
    Our goal has to be to try to wind down this crisis, wind 
down this situation, and I believe we have an opportunity to do 
that. We have an opportunity because we have had this election 
now, and we have a plan which yields a lot of local autonomy. 
We have a plan which is a rather generous peace plan which, 
obviously, offers amnesty, as you know, for those who struggled 
against the government in Ukraine.
    You have the will of the local Ukrainian Russian-speaking 
population, the majority of that population, to be part of this 
new system because they will be able to elect their own 
regional representation. But one thing stands in the way. What 
stands in the way is the insistence on President Vladimir Putin 
that he continues to bring in heavy weaponry and put that into 
this struggle, and as a consequence drive up the violence in 
the region.
    Russia is stepping up its actions, and that is why the 
United States and why Europe is working on a plan now. I must 
mention, we already passed out of this bill, the Ukraine 
Support Act, H.R. 4278, we passed this out of committee, myself 
and Eliot Engel were the authors of it. It expanded our 
President's authority to increase assistance for democracy and 
civil society there, and enhanced U.S.-international 
broadcasting that we are trying to use right now to counter the 
Russian propaganda in Russia.
    The administration has provided $23 million in nonlethal 
security assistance since March and proposed a $40 million 
program to train and equip elements of the National Guard in 
the Ukraine. The announcement yesterday that the U.S. and EU 
have agreed to impose new sanctions, including on the defense, 
financial, and energy sectors, is an acknowledgment that the 
actions taken to date have been insufficient to deter President 
Putin.
    Given that the Europeans can bring far more leverage to 
bear on Russia than the United States, the responsibility falls 
heavily on them to convince President Putin that his current 
course cannot succeed and will only bring increasing pain to 
his country and his economy. Only under the pressure, that kind 
of pressure, is he likely to choose peace and finally allow the 
Ukrainian people to achieve the security, prosperity, and 
freedom they have so long sought, and I think that is the best 
course of action. And I yield back.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And we would now like to hear an opening statement from 
Judge Poe, chairman----
    Mr. Sherman. Are you going to go Democrat or chairman?
    Mr. Rohrabacher. Okay, Mr. Sherman, the ranking member of 
the subcommittee.
    Mr. Sherman. Thank you.
    You listen to the American media and it is as simple as an 
old western movie. That is true of this crisis, that is true of 
an awful lot of crises where we think that one side is the 
black hats, the other side is the white hats. This committee, 
or combination of two subcommittees, has a diversity of views 
and I think will be a good exposition of the range and 
complexity of this crisis. I think the one thing we all agree 
on is that the Time magazine cover, ``Cold War II,'' needs to 
be avoided.
    The plane was shot down, almost certainly with an SA-11 or 
similar missile, I think certainly an accident, was shot down 
in a war zone in which separatists were shooting down other 
planes. The separatists did not use reasonable care to be sure 
that the plane they were shooting down was, like the other 
planes they had shot down, a Ukrainian military plane.
    There was a lack of care to go around. The Ukrainian 
Government closed its air space over this area up to 32,000 
feet. They knew their own planes were being shot down and it 
was perhaps the height of arrogance to think, well, they are 
shooting our planes down at 10,000 or whatever thousand feet, 
so we will let planes, invite planes to fly over at 32,000 
feet.
    We have got the Malaysian Airlines aware that planes are 
being shot down in this zone by not shoulder-fired missiles, 
but something more advanced, and they said, well, 32,000 sounds 
good to us, we will go 33,000.
    We have got the separatists who clearly didn't exercise due 
care. And finally, you have a Russian Government who knew 
better than the Ukrainian Government the military capacities of 
the separatists and could have closed their own air space along 
the border, thus making it impossible for civilian planes to 
fly where civilian planes should not have been flying.
    Of course, the separatists could have issued their own, 
since they style themselves a government, limitation use of the 
air space. Whether that would have been listened to by anybody, 
I don't know. But if Russia had closed its air space 
immediately adjoining this Ukrainian region, planes would have 
avoided the area.
    It is clear that sanctions are justified against Russia. 
They are interfering in the Ukraine. They are armoring the 
separatists. And I think that was well summarized by the 
gentleman from Massachusetts. That being said, our friends in 
Kiev who want us to take actions on their behalf ought to be 
taking some actions on their behalf. They ought to be offering 
the most generous possible package of local autonomy. Instead, 
they come and say, well, maybe we will continue the practice of 
having the governors of each oblast--state, if you will--
appointed by the central government. I have worked with the 
gentleman from Texas, and I know if that was the practice here 
of our Federal Government appointing the Texas governor, well, 
we might have some problems.
    They should be offering budgetary autonomy. They have done 
so in the vaguest possible words, whereas the Party of Regions, 
the last party to win an election held in peace, has put 
forward a more expansive list of actual autonomy. So I am not 
willing to see the whole world convulsed because those in Kiev 
could say, well, 51 percent of the people of the entire country 
support a strict centralized system. It is not our job to work 
with our allies to get them 100 percent of what they argue is 
justice. It is our job to work with these allies when there is 
a great injustice, as we are seeing now.
    And finally, there were comments about Yanukovych being 
driven from power. He ran on a platform, on really a 
constitutional issue, that he would face west. He then reversed 
himself and faced east. What I would like to know from the 
witnesses, because our chairman brought this up, is did the 
Ukrainian people have a capacity to reverse that reversal 
through the ballot box or was Yanukovych about to take action 
which legally was irreversible in signing the agreement with 
Russia, or as a practical matter would have been irreversible 
because the EU would not have accepted the Ukraine in its new 
status after the next regularly scheduled election?
    So I look forward to what I think will be a far more wide-
ranging and interesting discussion of all of the issues 
involving the Ukraine and the plane than I have heard in most 
American media. And I yield back.
    Mr. Rohrabacher. Thank you very much.
    And now we have Judge Poe.
    Mr. Poe. I thank the chairman.
    I think it is important that we view this more in a 
historical long-term perspective than just the isolated, small, 
tragic issue of the Malaysian airplane being shot down. That is 
the way I see it.
    Putin is the center of all of this. He sees himself as the 
modern day Peter the Great. Even in a recent profile of Putin, 
his closest advisors called him czar. Much like Peter the 
Great, Putin sees and wants an expanding Russian empire.
    Any objective observer would conclude nothing has stopped 
Putin in his desire for more territory. The administration and 
our European allies have tried to shame and isolate him by 
kicking Russia out of the G-8. He doesn't care about those 
diplomatic niceties, and it hasn't had any effect on him or his 
decision making. Putin and his cronies have brushed off 
pinprick sanctions and other weak attempts to get him to change 
his course. He hasn't changed his long-term course, in my 
opinion. The lack of strong response to Putin's aggression has 
only really encouraged him to be more aggressive.
    And then over the sky of Eastern Ukraine, a surface-to-air 
missile was launched and it destroyed the Malaysian civilian 
airliner. This dastardly deed killed--rather murdered--298 
people. The missile and launcher were Russian. This is a 
photograph of a similar missile launcher that is Russian made. 
The individuals shooting down the plane were so-called Russian-
backed separatists in Ukraine, and apparently the crash site, 
which is a crime scene on the ground, is controlled by pro-
Russian sympathizers, and it has been compromised by 
malcontents. As the chairman pointed out, they are pillaging 
the wreckage site, taking property from the people that were 
murdered on that plane. Unlike the civilized world, Putin's 
reaction was to deny that he had anything to do with it and 
persist in outlandish Area 51-type conspiracies about who did 
it.
    Putin, I call him the Napoleon of Siberia, has fingerprints 
all over this Lusitania-type incident. This is the latest in a 
series of aggressive acts by the Russian bear. I did mention in 
this committee on March 25th that Putin is determined to start 
Cold War II. Ever since then, he keeps doing things to 
encourage that philosophy of wanting to be starting that Cold 
War II again.
    In 2008, years ago, most Americans don't even remember, the 
Russians invaded the sovereign nation of Georgia. Not the State 
of Georgia, but the nation of Georgia--unlike one of our fellow 
committee members--was worried about Georgia being invaded and 
he missed it. It was the Republic of Georgia. The Russian bear 
gobbled up one-third of the territory. The world leaders, they 
protested loudly, but they were glad it wasn't their homeland, 
and then the world moved on. The Russian tanks are still in 
one-third of Georgia. I have seen them. I have been there.
    Then the Russian bear hibernated for a while and then in 
2013 it woke up hungry and it had its sights on its prey of 
Crimea. That belongs, still belongs, to Ukraine. So to satisfy 
its appetite for more czar-like territory it was gobbled up. 
Now the Russians unlawfully occupy Crimea. The world leaders 
once again got on television and voiced opposition, then they 
went off back to their policy of what I call appeasement.
    So, still hungry, the bear of the north woke up again in 
Eastern Ukraine, looked for more prey, and it subversively has 
supported insurrection against the Ukrainian Government to gain 
more territory. Reports indicate Russian special forces are 
playing the role of pro-Russian separatists, Russian special 
forces that were similarly pretending to be Georgian 
separatists. Battles are being fought, people are dying, and 
Russian imperialism persists in its aggression. This seems like 
this is a war to me on Ukraine.
    And then the Malaysian airplane was shot down. Also, as the 
chairman pointed out, other Ukrainian military aircraft have 
been shot down. Two Ukrainian military jets, over Ukrainian 
sovereignty, were shot down by Russian missiles fired from 
Russia. That seems to be somewhat aggressive. The world leaders 
are outraged, but the bear has not stopped.
    So what will the heads of states do? Will the world leaders 
continue to take the position the bear hasn't eaten them and 
they will do little but pontificate and hope the bear's 
appetite is satisfied? Maybe the bear will hibernate again. 
When it wakes up, like it always has, it will wake up hungry, 
and then when it roars, who will be devoured next, the rest of 
Ukraine, Moldova, Latvia, Estonia, Poland, or just another 
group of people on an airplane flying over another country? 
Only Putin knows what the roar of the Russian bear will bring 
to the rest of us.
    Appeasement certainly doesn't seem to be working, doesn't 
seemed to have stopped the aggression. It is important that we 
do what we can to help the Ukrainian nation keep its 
sovereignty. Yes, it is their country. They should defend it. 
It is their responsibility. But we can provide them military 
equipment, jam Russian missiles. The Russians must be made to 
understand they have to stop invading other people's territory.
    Second, as when I was in Ukraine, all the Ukrainians talked 
about was being energy independent from Russia. That is, 
developing their own natural gas to compete against Gazprom and 
getting U.S. natural gas to them. They wanted that. They don't 
know our answer on that.
    And third, we actually need sanctions that work to have an 
impact. So I ask the question: Is there not one bold Churchill 
to be found among the overpopulated, boastful Chamberlains 
among the world leaders? We shall see.
    I yield back.
    Mr. Keating. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Poe. I yield back.
    Mr. Rohrabacher. We will have some time for interaction 
after the witnesses testify. And I guess, Your Honor, that is 
just the way it is.
    We are going to go to the witnesses now. And anyone who has 
an opening statement, or extraneous material to add to the 
record at this point, it will be added to the record, without 
objection.
    We have four witnesses with us today. I would ask if they 
could try to, unlike the rest of us up here, limit the actual 
testimony to 5 minutes, although your written testimony can be 
as long as you would like. And then we will actually try to 
have a dialogue on this and ask you about the positions you 
have taken, and perhaps some questions that will utilize your 
expertise and help us get a better understanding of exactly 
what is going on in Ukraine.
    I will introduce all four witnesses and then we will 
proceed with the testimony of each witness, and then a 
question-and-answer period.
    Our first witness is Ian Brzezinski, a senior resident 
fellow with the Brent Scowcroft Center on International 
Security at the Atlantic Council. He served as deputy assistant 
secretary of defense for Europe and NATO policy between 2001 
and 2005. He has a long tenure of working with national 
security issues, including working on Capitol Hill for 7 years. 
He also worked as a volunteer in Ukraine in the early 1990s, 
advising the Ukrainian National Security Council, Foreign 
Ministry, Defense Ministry, and Parliament.
    We have Anthony Salvia, who is the director of the American 
Institute in Ukraine, a privately funded, nonprofit 
organization dedicated to providing information and education 
about the United States policy in that country. He served as an 
executive assistant to the president of Radio Free Europe, 
Radio Liberty from 1988 to 1993, and then went to Russia as 
director of the Moscow Programming Center for the RFE-R, Radio 
Free Europe/Radio Liberty, from 1993 to 1996. He is a graduate 
of Johns Hopkins University, has a master's degree in European 
Affairs and International Economics.
    Next we have Dr. Leon Aron. He is a resident scholar and 
director of Russian studies at the American Enterprise 
Institute here in Washington. He is widely published. He is an 
expert on Russia, having authored three books and hundreds of 
articles on the subject. He is also a frequent media 
commentator, and earned both a master's degree and his Ph.D. 
From Columbia University.
    And we have with us Ambassador William Taylor. He is the 
vice president for Middle East and Africa at the U.S. Institute 
of Peace. From 2011 to 2013, he was the special coordinator for 
the Middle East transitions at the Department of State, and he 
has also coordinated our assistance to Egypt Tunisia, Libya, 
and Syria. He served as the U.S. Ambassador to Ukraine from 
2006 to 2009. Before that, he served in Baghdad and Kabul. He 
is a graduate of West Point and a veteran of the United States 
Army.
    We turn to our witnesses now. And, Mr. Brzezinski, you may 
proceed.

STATEMENT OF MR. IAN BRZEZINSKI, RESIDENT SENIOR FELLOW, BRENT 
  SCOWCROFT CENTER ON INTERNATIONAL SECURITY, ATLANTIC COUNCIL

    Mr. Brzezinski. Chairman Rohrabacher, Chairman Poe, Ranking 
Member Keating, Ranking Member Sherman, members of the 
committee, thank you for the privilege of appearing before this 
hearing to discuss ramifications of the shootdown of Malaysian 
Airlines flight 17. That tragedy is the consequence of Russia's 
invasion of Ukraine, and specifically the Kremlin's stoking of 
an insurrection in Eastern Ukraine. The MH-17 shootdown should 
prompt us to carefully assess the effectiveness of the West's 
response to these provocative acts of aggression.
    The invasion of Ukraine began in February. Today, some 6 
months later, Russia still occupies Crimea. The insurrection in 
Eastern Ukraine, which has intensified, has been led and fought 
by Russian operatives, enabled by Russian weapons, and 
reinforced by Russian military forces massed along Ukraine's 
border.
    Yesterday the United States and West European officials 
announced agreement on a new set of sanctions against Russia. 
As we learn more about these sanctions, I hope they will mark a 
departure from the empty warnings, brooding ministerials, and 
the hesitancy and incrementalism that has characterized the 
West's reaction to this invasion.
    Indeed, over the last 6 months, U.S. policy appears to have 
been shaped more by the lowest common denominator of what our 
allies are willing to do rather than by initiative and decisive 
action on the part of Washington. And it has been 
counterproductive. It has emboldened Russia. After each 
increment of targeted sanctions, Russia has increased its 
support to its proxies in Ukraine. The Kremlin's deployment of 
irregulars with small arms is now complemented by training and 
recruitment centers in Russia, and its transfer to its proxies 
of tanks, rocket launchers, surface-to-air missiles, including 
most notably the Buk SA-11 air defense system, among other 
equipment.
    If the pending decisions by the United States and the EU 
are a continuation of past hesitancy and incrementalism, they 
risk leading to a stalemate in Ukraine, another frozen conflict 
that will leave Ukraine crippled and unable to pursue its 
European aspirations. Worse, it can embolden Putin to press 
further into Ukraine and pursue similar strategies toward 
Moldova and the Baltic States.
    The West needs a comprehensive strategy, targeted at 
persuading Putin to remove his forces from Ukraine, deterring 
Russia from further aggression against Ukraine and other 
neighboring countries, reinforcing Ukraine's capabilities for 
self-defense and assisting Ukraine to become a prosperous, 
democratic European state.
    Towards these ends, the U.S. should undertake the following 
initiatives. First, stronger economic sanctions against Russia 
are in order. The overly selective scope of current sanctions 
has failed to inflict the systemic economic pain necessary to 
make an authoritarian regime rethink its actions. Sectoral 
sanctions should be imposed and the key targets should be 
Russia's energy and financial sectors. There should be no 
loopholes and no exceptions.
    Second, a more robust effort is needed to shore up NATO 
allies in Ukraine. In early June, President Obama announced the 
European Reassurance Initiative to reinforce Central European 
allies and build the military capabilities of East European 
partners. This is an important initiative, but almost 2 months 
later it remains unclear exactly what it will yield. It would 
be useful if the ERI established a strategically significant 
U.S. enduring military presence in Poland and the Baltic 
States. It would be even better and more useful if NATO's West 
European allies contributed to this initiative.
    Third, we need to provide military assurance to Ukraine. To 
date, NATO and the United States have unwisely done the 
opposite. They have drawn a red line on the alliance's eastern 
frontier that leaves Kiev militarily temporarily isolated. Now 
that Russia is firing artillery into Ukraine, erasing that red 
line has become more urgent.
    Toward that end, the United States should grant Ukraine's 
request for lethal military equipment, including surface-to-air 
missiles and anti-tank weapons, deploy intelligence and 
surveillance capabilities in Ukraine, along with military 
trainers, conduct military exercises in Ukraine to help train 
its armed forces. None of these initiatives would threaten 
Russian territory.
    Fourth, the West needs to step up its efforts to counter 
Russia's aggressive propaganda campaigns. The Kremlin's effort 
against Ukraine in this realm has been the most intense we have 
seen since the end of the Cold War.
    Fifth, the West needs to support Ukraine's effort to reform 
its economy and integrate into Europe. To its credit, 
Washington has done well in mobilizing international financial 
support for Ukraine. Freeing up U.S. LNG exports to Central and 
Eastern Europe would be another way to reinforce the region's 
security and help Ukraine diversify its energy base.
    And finally, the West needs to reanimate the vision of a 
Europe whole, free, and secure. The situation in Eastern Europe 
today necessitates that NATO make clear its open-door policy is 
no passive phrase or empty slogan.
    Mr. Chairman, the shootdown of MH-17 is a stark reminder of 
how regional conflict can have immediate implications far 
beyond its immediate vicinity. I hope the sanctions that are 
being rolled out today will reflect a firmer response and 
stronger leadership on the part of the United States. That will 
be necessary if the West is going to convince President Putin 
to reverse his dangerous course.
    Thank you.
    [The prepared statement of Mr. Brzezinski follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Mr. Salvia.

 STATEMENT OF MR. ANTHONY SALVIA, EXECUTIVE DIRECTOR, AMERICAN 
                      INSTITUTE IN UKRAINE

    Mr. Salvia. Thank you, Mr. Chairman. And thank you to Judge 
Poe and Congressman Keating and Congressman Sherman and the 
whole committee for the opportunity to address this joint 
subcommittee of the House Foreign Affairs Committee.
    The controversy over the shootdown of Malaysian Airlines 
flight 17 remains unresolved. There are the predictable charges 
and countercharges, which are no substitute for proper 
investigation resulting in the conclusion that all parties, 
above all Russia and Ukraine, can and must accept.
    Meanwhile, the conflict in Eastern Ukraine continues to 
grind on to the detriment of all Ukrainians. It is safe to say 
many hundreds have died. I think the New York Times said 
yesterday 800 since April have died in Eastern Ukraine and 
thousands have been wounded. According to the U.N., some 
230,000 have fled their homes, of whom more than 100,000 have 
been driven out of the country. Donetsk, a city of 1 million, 
is under siege. Its water supply is at risk. Sections of the 
city have no electricity, sewage, or gas. Shops are closed. 
Food is increasingly hard to come by.
    What will happen now? Will there be a cease-fire leading to 
a negotiated settlement so as to salvage Ukraine's increasingly 
slim prospects for unity? Or will Kiev continue to seek a 
military victory in the east and use the National Guard, which 
includes in its ranks member of the extreme nationalist Praviy 
Sektor, to repress the native population?
    As of now, Kiev seems determined to prosecute the war, 
which means in the context to create demographic change in the 
country. Kiev cannot afford to pay its soldiers. There is a 
high rate of desertion and Ukraine's economy is teetering on 
the brink of collapse. But it is making headway in one area, 
namely in the killing of East Ukrainian civilians, which 
Western observers at long last have begun to take note, 
including a New York Times article of yesterday.
    And indeed, as Human Rights Watch reported last week from 
Donetsk,

        ``Unguided rockets launched apparently by Ukrainian 
        Government forces and pro-government militias have 
        killed at least 16 civilians and wounded many more in 
        insurgent-controlled areas of Donetsk and its suburbs, 
        in at least four attacks between July 12 and 21, 2014. 
        The use of indiscriminate rockets in populated areas 
        violates international humanitarian law, or the laws of 
        war, and may amount to war crimes.''

    Nevertheless, there is no evidence that Kiev is curtailing 
the use of these missiles in populated areas or, for that 
matter, the resort to air power and artillery against anti-Kiev 
fighters Poroshenko calls terrorists, dirt, and parasites. 
Poroshenko brushed off calls from Paris, Berlin, and Moscow to 
extend his June 20th cease-fire and resumed his offensive 
against his own people. The Eastern Ukrainians are responding 
by shooting down as many of Kiev's military plans as they can 
and the cycle of violence spins on.
    There are those in Washington who see Ukraine not at all 
for itself, but strictly as an adjunct to its obsession with 
Russia, concerning which the prevailing attitude is, we must 
win, you must lose. Perhaps Washington and its friends in Kiev 
can succeed in decimating Donetsk and Luhansk, but this is not 
likely to be the end of it.
    Indeed, in the Washington Post just the other day, I 
believe it was the day before yesterday, Serhiy Kudelia of 
Baylor University wrote about the prospect of you can defeat 
Donetsk and Luhansk, but what about a long-term 
counterinsurgency that leaves the place in a state of not the 
same degree of upheaval as all-out war, but a situation of a 
lack of resolution, a kind of Northern Ireland situation, only 
worse.
    It is unlikely Poroshenko would be embarked on his present 
course without Washington's support and pressure from his own 
radical nationalists. It is telling that on July 22nd, 
President Obama called for a cease-fire in Gaza, but said 
nothing about a cease-fire in Ukraine.
    There is no military solution to Ukraine's internal 
problems, which are political, economic, and cultural in 
nature. Ukraine is the second-poorest country in Europe. Its 
foreign exchange reserves are shot. All resources are being 
poured into the campaign to destroy the most prosperous part of 
the country, East Ukraine.
    And indeed, Serhiy Kudelia, writing in the Washington Post 
the day before yesterday, I don't know how he came up with this 
figure, but he put a figure of $800 million on the need just to 
conclude this campaign on the part of the Kiev government. 
Where are they supposed to get this money when they are in 
arrears to the tune of multi-, multi-, multi-millions and 
billion, and then to add on this expense? Where does the money 
come from?
    As former Acting Prime Minister Yatseniuk stated upon his 
recent resignation, the coalition, the governing ``coalition of 
Fatherland, UDAR, and Svoboda has fallen apart. Laws haven't 
been voted on. Soldiers can't be paid. There is no money to buy 
rifles. There is no possibility to store gas. What options do 
we have?'' asked Yatseniuk.
    Well, there is this option: A comprehensive cease-fire, 
genuine negotiations, and a balanced settlement that addresses 
Ukraine's real needs. Such an approach would command wide 
European and especially German support.
    Dr. Robert Legvold of Columbia University in New York 
recently observed that Europeans will not support one side 
pushing for military victory over the other. He said,

        ``Kiev's part in the political dialogue must be 
        flexible and genuinely open to meeting the concerns of 
        the majorities in all of Ukraine's eight eastern 
        provinces. It means more than convening peace talks, 
        even if without preconditions. It means getting the 
        U.S., the United States, to invest more effort in 
        drawing all parties toward a political settlement.''

That is the heart of the matter, how do we get Washington on 
board with the idea of a cease-fire negotiation, a peaceful 
settlement? Thank you.
    Mr. Rohrabacher. Thank you very much.
    [The prepared statement of Mr. Salvia follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Mr. Taylor.

 STATEMENT OF THE HONORABLE WILLIAM B. TAYLOR, VICE PRESIDENT 
 FOR MIDDLE EAST AND AFRICA, UNITED STATES INSTITUTE OF PEACE 
          (FORMER UNITED STATES AMBASSADOR TO UKRAINE)

    Ambassador Taylor. Chairman Rohrabacher, Chairman Poe, 
members of the subcommittees, thank you very much for the 
opportunity to speak to you today on the shooting down of 
Malaysia flight 17 and the escalating crisis in Ukraine. I 
commend you for this timely and important hearing. The views I 
express today are solely my own. They do not represent those of 
the United States Institute of Peace because we do not take 
policy positions.
    In my view, today Russia is the single greatest threat to 
peace in Europe. If the West does not confront this threat, 
that is, if we appease the Russians now, we will have to 
confront an even larger threat tomorrow closer to home.
    Members of this committee, and my panel members, are very 
familiar, very aware of the situation in Ukraine. Russian 
support for the so-called separatists in Donetsk and Luhansk--
weapons, leadership, financing, organization, personnel, 
fighters--is the only thing keeping the Ukrainian Government 
from establishing security in Southeastern Ukraine. Security is 
needed to find the remaining victims of the missile strike on 
the Malaysia airliner and to complete the investigation. 
Russian support allows the so-called separatists to continue to 
impede those efforts.
    In my view, we must confront the Russian war against 
Ukraine. This aggression started with the quiet invasion of 
Crimea last spring. A sham, at-the-end-of-a-rifle referendum 
was followed by an illegal annexation. The international 
community should not allow that annexation to stand. Until that 
situation is resolved to the satisfaction of Ukraine, the 
Russian Government should pay serious penalties to Ukraine for 
the temporary loss of income and illegally confiscated assets 
that would have come to Ukraine from Crimea.
    The international community did not confront the Kremlin on 
Crimea. As a consequence, the Russians continued their 
aggression in Donetsk and Luhansk. The leaders of the 
separatist movement unit have become almost exclusively 
Russian. Russian equipment continues to flow across the border 
unimpeded. This equipment, including sophisticated anti-
aircraft weapons, shot down the Malaysian airliner, killing 298 
people. No matter what individual separatist pushed the button 
to fire the weapon, let's be clear, Mr. Chairman, the tragedy 
is Russian responsibility.
    What should be done? First, human decency requires the 
return of the victims to their families. Further, experts need 
access to the crash site to complete the investigation. If the 
so-called separatists continue to impede these efforts, the 
international community, led by the Dutch, Australians, and 
Malaysians, supported by other nations with victims on MH-17, 
including the United States, and with the approval of the 
Ukrainians, should provide an armed international security 
force to protect the investigators and allow them to find 
victims and complete their investigation. That investigation 
should lead to criminal prosecutions of those found 
responsible.
    Second, the international community, led by the United 
States, should provide Ukraine with the means to eliminate the 
separatist forces in their country. This means weapons, 
military advice, intelligence, and financial support to pay and 
equip their soldiers.
    Third, the international community should follow the 
individual travel bans and asset freezes with harsh economic 
sanctions on entire sectors of the Russian economy to deter the 
Kremlin from continued support to the separatists, to force 
them to close their border to weapons, fighters, and military 
support, and to pressure them to return Crimea to Ukraine.
    Fourth, the international community, led by the United 
States, should provide financial support to Ukraine as it 
simultaneously confronts Russian aggression and undertakes 
serious economic and political reform. The International 
Monetary Fund loans may have to be increased. Bilateral support 
will have to be expanded. Advice on economic reform, energy 
pricing, and anti-corruption in particular, will be needed.
    Fifth, the international community should respect Ukraine's 
right to decide with whom to associate politically and 
economically. Western political and security institutions, 
specifically the European Union and NATO, should be open to 
membership applications from Ukraine.
    Mr. Chairman, it is a tragedy that it took the shooting 
down of a civilian airliner over Ukraine to force the 
international community to confront Russian aggression. If we 
don't confront it now, it is appeasement, and Russia will not 
stop at Donetsk.
    Thank you, and I am happy to answer your questions.
    Mr. Rohrabacher. Thank you very much for your testimony.

    [The prepared statement of Ambassador Taylor follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              

    Mr. Rohrabacher. Dr. Aron.

STATEMENT OF LEON ARON, PH.D., RESIDENT SCHOLAR AND DIRECTOR OF 

       RUSSIAN STUDIES, THE AMERICAN ENTERPRISE INSTITUTE

    Mr. Aron. Thank you very much, Mr. Chairman. Answering your 
call to see how the settlement could be reached in Ukraine, I 
think it is very helpful to look at the sources of Russian 
behavior and put the conflict in the wider military and 
political context to see what shapes Mr. Putin's strategy.
    From the moment the regime of Viktor Yanukovych was 
overthrown in Kiev at the end of February, Russia, that is Mr. 
Vladimir Putin, has pursued three strategic goals in Ukraine. 
First, to punish, humiliate, destabilize, if possible dismember 
and ultimately derail a Euro-bound Ukraine. Second, to prevent 
the West from imposing meaningful, binding sanctions. And 
finally, to continue to solidify Mr. Putin's domestic political 
base by rallying around the flag.
    This third objective is the most important one. By all 
indications, Mr. Putin is engineering a Presidency for life. 
This is not an easy task in a Russia with a stagnant economy, 
possibly sliding in recession, rising food prices, enormous 
corruption, and continuing decline in the quality of education, 
health care, and upward mobility. As recently as the end of 
2013, according to public opinion polls, the Russian people's 
trust in Putin's promises, his popularity, and the desire to 
see him President again in 2018 were at record lows.
    All, however, was forgiven and forgotten in the deafening 
din of the monopolistic propaganda that followed the annexation 
of Crimea and the by-proxy invasion of east-south Ukraine. The 
patriotic euphoria at the sight of these alleged victories, for 
the alleged just cause of saving the ethic brethren from the 
depredation of what Moscow continues to call the Nazi junta in 
Kiev, combined with an equally unbridled paranoia of the NATO 
plots from which only President Putin is capable of shielding 
the motherland, all of that has proven irresistible.
    But there is something else that interfered with Mr. 
Vladimir Putin's success, and that is the unexpected Ukrainian 
advance on the battlefield, which created big political 
problems for Putin. As I have mentioned, the effort of the 
Russian domestic propaganda machine has been very successful. 
But if one lives by propagandistic hysteria, one may also die 
or at least be bled by it. The propaganda-induced mood cannot 
be tamped down quickly to justify giving up on the forces of 
civil self-defense, as the Kremlin continues to call its 
proxies in Ukraine.
    Therefore, a retreat from, not to mention a defeat in 
Ukraine is not a political option for Mr. Putin. So in the face 
of the Ukrainian advance, from the beginning of July, Russia in 
effect has imposed a no-fly zone over east-south Ukraine, and 
that is the political and military context in which the tragedy 
of the downing of MH-17 has occurred.
    Now, where from now, as far as Russia is concerned? Well, 
if the efforts to stop the Ukrainian advance with a no-fly 
zone, as well as the accelerated movement of troops and heavy 
equipment across the border, which has been mentioned here 
already, fail, Mr. Putin may declare Ukraine in the throes of a 
fratricidal civil war and thus necessitating Russia's direct 
military intervention to protect innocent civilian lives.
    In doing so, Mr. Putin is likely to invoke the so-called 
Libya precedent, which Moscow repeatedly hinted at as a 
justification for such an action. After all, from their point 
of view, Moscow would only be following what the West did in 
Libya in 2011.
    This option, however, is not without risks, and the biggest 
of them is that the Ukrainian Army is likely to put up a fight. 
And if Russian casualties begin to multiply, Putin's domestic 
support may begin to erode very quickly, because over half of 
the Russians, according to public opinion polls, repeatedly 
told the pollsters that they do not want Russia to invade 
Ukraine directly.
    Therefore, it seems to me that Vladimir Putin's preferred 
choice is likely to be a call for an immediate cessation of 
hostilities, and, as it has done repeatedly in the past, Moscow 
will call also for direct negotiations between Kiev and it 
proxies.
    Now, there is nothing inherently wrong with that, in fact 
that should be welcomed, except we have reasons to doubt that 
the real peace rather than victory in Ukraine is the goal, 
because such a cease-fire will enable Russian separatists to 
stay in control of the territories they hold today and Russia's 
proposed truce would allow Russia to have its cake and eat it, 
too. It will stop the Ukrainian offensive, it will save the 
proxies from defeat, while at the same time avoiding resorting 
to the direct invasion by Russian regular troops.
    And so whatever the actual tactics, Russia's strategy will 
continue to be shaped by the fact that a successful low-
intensity war in Ukraine is a key domestic political imperative 
of the Putin regime. That, in turn, makes not the prospect for 
peace, but a bloody stalemate as the likeliest outcome in the 
short and perhaps even medium term. 

    Thank you very much.

    [The prepared statement of Mr. Aron follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              

    Mr. Rohrabacher. Well, I want to thank all of our 
witnesses. We have as not as broad a range of opinion as I 
would have liked to have had, although we have differences of 
opinion in the panel.
    I plan to ask my 5 minutes worth of questions and then we 
will give my other colleagues a chance.
    First of all, do we agree that this was not an intentional 
shootdown of this airline? Does everyone agree to that? I mean, 
nobody said, let's shoot down a commercial airline.
    With that said, there are--not counting the victims of this 
airline--did we say there were 800 people who have been killed 
since February?
    Mr. Salvia. According to the New York Times of yesterday, 
they gave a figure of 800 since April.
    Mr. Rohrabacher. Okay. Is that figure about right with the 
rest of you?
    Ambassador Taylor. It is probably more like 1,000.
    Mr. Rohrabacher. Probably more.
    Of those who are dead, how many are civilians from the 
eastern part of Ukraine who have been killed by the military 
operations by the Ukrainian Government in that region, of the 
dead? Of that 800 dead, are we talking about half of them? Or 
the vast majority of them?
    Mr. Aron. Mr. Chairman, it is very difficult in the 
conditions of the urban warfare, it is very difficult to 
establish which side killed how many people. And the propaganda 
efforts on both sides are tremendous.
    Mr. Rohrabacher. So would you agree with that, Mr. Salvia, 
that it is hard to tell?
    Mr. Salvia. Absolutely, yes.
    Mr. Rohrabacher. It seems to me that it wouldn't be that 
hard to tell. It seems to me that if you have dead civilians on 
the ground in Eastern Ukraine that you would have to assume 
that they were not being shot by, intentionally, by the 
separatists who are there as part of their community. That 
would seem to be that way.
    Ambassador Taylor. Mr. Chairman, it is hard to tell. We 
don't know. But what we do know is that we have recently seen 
that the separatists have killed civilians and put them in a 
grave, in a mass grave. We found this over the last couple of 
days.
    Mr. Rohrabacher. The separatists killed the civilians?
    Ambassador Taylor. Yes, sir.
    Mr. Rohrabacher. For what reason did they do that?
    Ambassador Taylor. We don't know, sir. What we know is 
there are some dead people.
    Mr. Rohrabacher. Have there been any cease-fires in this 
between the separatists and the Ukrainian Army? There have 
been?
    Mr. Aron. There have been cease-fires.
    Mr. Rohrabacher. How many cease-fires have there been?
    Mr. Aron. There were several. But the latest one, if you 
remember, Mr. Chairman, the latest one is of course because of 
MH-17. It was a unilateral cease-fire. But the one before ended 
when the separatists attacked the Donetsk airport. It was a 
unilateral cease-fire by Ukraine, and it was broken by the 
separatists.
    Mr. Rohrabacher. Okay. So there have been cease-fires. Do 
you agree with that, Mr. Salvia?
    Mr. Salvia. Your question? I am sorry? Will you repeat the 
question?
    Mr. Rohrabacher. How many cease-fires do we know of there?
    Mr. Salvia. Well, the main one was the one Dr. Aron was 
referring to, which was June 20th to June 30th. So it was a 
tentative cease-fire, but that then ended in renewed fighting.
    Mr. Rohrabacher. Okay. Have there been other cease-fires?
    Mr. Salvia. Brief ones. Again, as Dr. Aron said. After the 
immediate shootdown of the airplane there was a brief one. 
There has not been a prolonged cease-fire coupled with serious 
negotiations.
    Mr. Rohrabacher. I think your point that we have been 
calling for cease-fires in Palestine, Israeli cease-fires, we 
don't seem to be putting that type of energy into calling for 
cease-fires and negotiations in Ukraine.
    Is this issue one of where people are demanding federalism 
and there is not a negotiation on this issue? Or is this just a 
matter of the people are just demanding that they have a 
separate status, totally separate status, and become 
independent of Ukraine? The people who are actually fighting, 
what demand have they made?
    Mr. Brzezinski. Sir, I guess my impression is, is that 
while there is generally always a demand for more autonomy from 
regions----
    Mr. Rohrabacher. Yes.
    Mr. Brzezinski [continuing]. This conflict wasn't created 
by Ukrainians seeking greater autonomy. It was created by 
Russian operatives who were sent into Eastern Ukraine and 
seized buildings and violently closed off the region.
    Mr. Rohrabacher. So the people who are seizing buildings, 
the first buildings that were seized that I remember in Ukraine 
were seized by the people who were trying to force the 
democratically elected President out of his office, seizing 
buildings in the western part of Ukraine. And I am sure those 
were local people, although there has been the suggestions that 
they were very radical. And so buildings were seized there.
    Do you agree, Doctor, with that analysis, that the people 
who were basically starting this and seizing those buildings 
originally were all Russian agents and not local people?
    Mr. Salvia. Well, I don't know. I think that may go a bit 
far. I mean, it certainly is true what you say that a lot of 
this originated last winter when you had the efforts to 
overthrow what you correctly say was the democratically elected 
Government of Ukraine, a government which faced elections in 
February 2015.
    In other words, if the opposition in Ukraine was upset with 
what Yanukovych did about the European Association Agreement, 
they had a whole year to organize, to deal with the matter at 
the ballot box. After all, the Maidan movement, which I was 
hugely sympathetic to myself, personally, was all about 
European values. Well, what are European, Western values but 
democratic elections? Elections were coming.
    Unfortunately, it didn't go that way. And those elections 
could have been monitored by Western monitors to see if there 
was any kind of vote fraud, had they occurred. We saw what 
happened in 2004 during the Orange Revolution when there was 
vote fraud and our Western monitors found it and they brought 
it to light. That could have happened again. You could have had 
a democratic process taking place and these issues dealt with 
that way.
    Instead, to get to your point, a violent solution was opted 
for. And I was in the Maidan in February, saw young guys 
running around town with spears and pikes and sharpened 
metallic objects. There were huge military tents in Maidan with 
crate after crate of Molotov cocktail mix. What were these guys 
doing with that stuff? Where did they get it?
    In any case, so you had the violent overthrow of the 
government. And then the uprisings in the west, Lviv declared 
itself a Party-of-Regions-free-zone and that kind of thing. 
This was all seen as hugely provocative in the East.
    Mr. Rohrabacher. The most important thing that you are 
bringing out is that the violence that we are talking about did 
not start with the separatists taking over a building in the 
eastern part of Ukraine, although that was a violent act. And 
the military coming in to then make sure that those buildings 
were not occupied, but instead were under the sovereignty of 
the Kiev government created more violence.
    There is one other question I had that was specifically--
oh, yeah. The question that was posed, and I believe by one of 
the other panelists, was that if indeed Yanukovych would have 
signed this agreement with Russia rather than the European 
agreement which was offered, which he didn't feel was as good 
an agreement, could the Ukrainian people in the next election 
cycle, which would have been 2 years away, eliminated that 
agreement and eliminated--well, they could have eliminated 
Yanukovych, obviously--through the ballot box or was this 
agreement a situation that there was no democratic alternative 
to counteract because it would have been permanent?
    Mr. Salvia. Let me just say that what Yanukovych did was he 
said no to the Russian Eurasian Customs Union. He said no to 
that, right? He said yes to the European Association Agreement, 
though pending revision, because he said this is radically not 
in our interest, I am not going to sign in Vilnius, we won't 
sign that. And he also said that the European incentive package 
was completely inadequate, of $800 million, contingent on 
renewed IMF funding, which he didn't want to do.
    Mr. Rohrabacher. Well, whatever agreement that he signed 
with Russia, could the people of Ukraine have elected a 
Parliament that would have eliminated that 2 years down the 
road?
    Mr. Salvia. I think so, because the agreement that Putin 
was offering him at that time was--again, Yanukovych rejected 
the Russian deal of entering the Eurasian Customs Union. So 
there was no treaty or anything like that. What Putin was 
offering was a financing deal, saying $20 billion coming to you 
and a cut in gas prices. That was a simple deal, and that could 
have been reversed or not.
    Mr. Rohrabacher. First of all, we hope that the violence 
that now plagues Ukraine, that there is not only a cease-fire, 
but that there is a cessation, that people with this airline 
catastrophe where you had so many innocent people lost their 
lives just from a commercial airliner, let's hope that this 
jars people to the point that they sit down and take nonviolent 
options seriously and negotiation seriously with each other. 
That is not the case, if Mr. Brzezinski is correct, that this 
is basically an outside-motivated violent episode, and it is 
not just erupting from the inside.
    I happen to think that this started when Yanukovych was 
overthrown with violence, and that is the point it started. 
Whether or not that means that now outsiders have taken over 
the situation and that Ukrainians themselves are not going to 
be able to do this, come to an understanding, I hope that we 
play a positive role in bringing that together. And I would 
hope that if Russia is indeed fanning the flames rather than 
trying to just react to other violence that is going on, I 
would hope that the Russian Government sees a way to start 
bringing peace to Ukraine as well. I hope that we would submit 
that to them and their conscience and turn a spotlight on it in 
the world.
    So I now yield to my ranking member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Salvia, I noticed in your comments the absence of 
Russian involvement conspicuously in this. And you are pointing 
the finger at the constitutional government's repression of the 
national population and Washington's obsession with Russia.
    Now, I want to learn a little bit more about your 
organization, the American Institute in Ukraine. I want to ask 
you a question, how it was founded, who is funding it, where it 
is headquartered--I couldn't find a site--where it is based. 
Just briefly. What is the American Institute in Ukraine?
    Mr. Salvia. It is a nonprofit organization. It is a very 
small group. It is myself and a partner working with a media 
group in Kiev that put on roundtable discussions in Kiev, at 
least until recently. It has been kind of hard to operate----
    Mr. Keating. So it is headquartered in Kiev?
    Mr. Salvia. Well, you know----
    Mr. Keating. Is it registered as a foreign agent?
    Mr. Salvia. We had an office in Kiev.
    Mr. Keating. Are you registered as a foreign agent, then?
    Mr. Salvia. In Kiev? Where?
    Mr. Keating. Here. If you were in Kiev, are you registered 
as a foreign agent? Yes or no?
    Mr. Salvia. We don't represent----
    Mr. Keating. Yes or no?
    Mr. Salvia. No.
    Mr. Keating. Do you have a 501(c)(3), since you are a 
nonprofit? We couldn't find any.
    Mr. Salvia. I believe it is a 501(c)(6).
    Mr. Keating. You have that as a nonprofit?
    Mr. Salvia. Yes.
    Mr. Keating. Okay. Now, I want to talk to you about the 
institute, too, because you mentioned you have other partners. 
You have two principals, Mr. Jatras and Mr. Spinck, that are 
also with the Global Strategic Communications Group, and they 
are in management positions with that.
    Now, this organization, along with the two principals I 
mentioned, currently were registered lobbyists and/or 
registered foreign agents. You have had those for clients, that 
group. Is that correct? Yes or no?
    Mr. Salvia. Agents for what group?
    Mr. Keating. Global Strategic Communications Group, which 
you and your principals you just mentioned. I want to find out 
about that group.
    Mr. Salvia. But you mentioned something specifically about 
one of them was working for whom?
    Mr. Keating. I want to know if that organization I just 
mentioned, along with the two principals I mentioned, are 
currently or were in the past registered lobbyists for foreign 
agents and for other clients, including a former Prime Minister 
of Ukraine, including the deputy, Russian Federation State Duma 
and his party, and including Russian corporations.
    Let me be more specific so I just get a yes or no from you. 
In 2005, the Foreign Agents Registration Act had some 
information, and it said that organization served as the PR arm 
for Deputy Prime Minister of the Russian Federation Dmitry 
Rogozin and his Rodina party. Further, there is another FARA 
inclusion that declares that it is associating with members of 
your organization with the now ousted President Yanukovych of 
Ukraine. Is that correct, yes or no?
    Mr. Salvia. Yes. One of the----
    Mr. Keating. That is correct, yes.
    Mr. Salvia. One of the members of the group was giving 
advice to Yanukovych.
    Mr. Keating. I just want the public to know. I am asking 
the questions. I just wanted the public to know for 
transparency reasons why your remarks, which were so 
conspicuously absent Russian involvement, may have been absent 
that.
    And I just want to go further, if I could, and just say 
this. I want one more question as well.
    The Kaalbye Shipping International, Kaalbye Shipping 
International has been listed as a client of Global Strategic 
Communication Group as well. Now, is that the same Kaalbye 
Shipping International which was implicated in the illegal 
transfer of Russian arms to Syria, Iran, Sudan, and other 
countries of concern? Is that the same? Yes or no?
    Mr. Salvia. Sir, I am not familiar with that whole thing. I 
am just not familiar with it. Sorry, sir.
    Mr. Keating. Well, perhaps I can enlighten.
    I have some documents I would like placed in the record, 
Mr. Chairman. If I have unanimous consent to place those 
reinforcing documents in the record.
    Mr. Rohrabacher. May I ask a clarification to your 
question? Are you questioning him about the American Institute 
in Ukraine or about another----
    Mr. Keating. I am questioning, Mr. Chairman, about both. 
Because this hearing should be transparent, unlike----
    Mr. Rohrabacher. Okay. Excuse me. Excuse me. What was the 
other organization you are asking about?
    Mr. Keating. The other organization was the organization 
that our witness said the principals were indeed involved with 
that he mentioned, the same as the American Institution Group, 
and that is the Global Strategic Communications Group.
    Mr. Rohrabacher. Is he affiliated with that group?
    Mr. Keating. Yes, he is. Let him answer.
    Yes or no, sir?
    Mr. Salvia. Well, I think the question was, did one of----
    Mr. Keating. This is my time, by the way, Mr. Chairman.
    Mr. Rohrabacher. Sure.
    Mr. Keating. Can I reclaim the time----
    Mr. Rohrabacher. Yes, you may.
    Mr. Keating [continuing]. That you interrupted me?
    Mr. Rohrabacher. Yeah. Right.
    Mr. Salvia. The question was, did one of the members of the 
group have anything to do the former Prime Minister of the 
Ukraine----
    Mr. Rohrabacher. No. Are you involved with that specific 
organization that he is asking about?
    Mr. Keating. Mr. Chairman, with all due respect, it is my 
time to question. And I did question him, and he did indicate 
that.
    So I just want the public to know, I want the world to know 
that the comments you gave that conspicuously left out Russia 
for any involvement and pointed the finger at Washington and at 
the constitutionally elected Government of Ukraine, I want them 
to know who you and who this organization is.
    That is all I have to say. He answered my question, so I 
yield back, Mr. Chairman.
    Oh, Mr. Chairman, one other point of order.
    Mr. Rohrabacher. Go right ahead.
    Mr. Keating. Pending is my request, unanimous consent, to 
make this reinforcing information part of the committee 
hearing's record.
    Mr. Rohrabacher. Hearing no objection, whatever you would 
like to put in the record.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Are you a member of that organization? Are 
you an employee or an actual member of the organization he was 
referring to?
    Mr. Salvia. Not an employee. Not an employee of the 
organization. But some of the guys in the group have----
    Mr. Rohrabacher. No, no, I am talking about you, are you a 
member of that organization?
    Mr. Salvia. No.
    Mr. Keating. Mr. Chairman, point of order. You interrupted 
me. I have a document that I submitted where he is listed as 
the director for the Global Strategic Communications Group.
    Mr. Rohrabacher. Okay.
    Mr. Salvia. Oh, I thought you were talking about this 
Kaalbye--I am sorry, I thought you were talking about this 
Kaalbye business or something.
    Mr. Rohrabacher. The question is, are you a director of 
that organization.
    Mr. Salvia. Global Strategic Communications Group does 
consulting, public advocacy consulting on behalf of clients, 
whatever they may be.
    Mr. Rohrabacher. Okay. So are you a director?
    Mr. Salvia. Yeah, I have to do with it, yes.
    Mr. Rohrabacher. Okay. Thank you. That is important.
    Let me just again note, however, that my ranking member, 
while doing a very good job as, which is his profession, as a 
prosecutor, let me just note that we didn't actually talk about 
any specific areas of disagreement. And, quite frankly, I am 
disappointed that instead of talking about ideas and 
information to find out accuracy, that instead we sought to 
attack the witness.
    Mr. Keating. Mr. Chairman, if I may.
    Mr. Rohrabacher. You may answer that.
    Mr. Keating. Because it is point of personal privilege.
    Thank you for your continued cooperation in our 
relationship. And I am not disappointed in our relationship. 
But I must tell you, if we have a witness who is testifying 
that information and informing the public, we should know who 
that witness is.
    I yield back.
    Mr. Rohrabacher. Yes. And you spent your time what we call 
poisoning the well.
    Mr. Keating. Mr. Chairman, I take point of personal 
privilege with that.
    Mr. Rohrabacher. Okay. Go right ahead.
    Mr. Keating. What I did was, I think, uncover the cloud and 
the shroud that this witness had in terms of a prejudice, and 
the public should know that if we are to conduct the kind of 
transparent hearing that this Congress and this country is 
noted for.
    Mr. Rohrabacher. Yes, I think all things should be 
transparent, and I think when we have hearings that we should 
be focusing on ideas and information that can help us determine 
what the reality is and find different avenues to find 
solutions to the problems we face. And I think that no matter 
what witness we have, we can find our time spending our time 
trying to basically attack the witness or attack the ideas the 
witness is expressing. And I am not saying that attacking the 
witness' credibility is not a viable methodology of dealing 
with political challenges like this. That is not the way I 
handle myself. But I think that it is better to confront ideas 
than it is to confront personalities.
    Your honor, would you like to----
    Mr. Poe. I suspect the chairman of the full committee ought 
to be next. I will wait my turn.
    Mr. Rohrabacher. So ordered.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    Thank you, Judge Poe.
    One of the advantages of having a vibrant press is that you 
get to watch on television things unfold not always as they 
were planned. And we saw in Kharkiv, we saw in that town a 
group of separatists who stormed the opera house, mistaking it 
for city hall. Now, one of two possibilities here. One is that 
people in the town are ambivalent about opera and civics and 
know neither where the opera house is or city hall is. But I 
think more likely, since the Russian camera crew was there 
filming this and filmed the Russian tricolor being put up on 
the opera house, and then one of the locals said, that is not 
city hall, and then you got to see them take it back down, run 
back across town, and you saw the so-called separatists in 
their masks and such go up and actually put it on city hall 
and, again, second take, for the Russian camera crew.
    The reality here seems to be that you do have a lot of 
foreign influence coming into the country, as reported to me 
and Judge Poe when we were in Dnepropetrovsk, that is in the 
business of putting up Russian flags and in the business of 
bringing in a great deal of heavy weaponry, as General 
Breedlove has shared with Congress.
    So the question I have, at the end of the day, and I would 
like each of the panelists to just give me their take, what do 
you believe President Putin's goals are in Ukraine in all of 
this? Because this takes a considerable expenditure of 
resources from Russia in order to finance this kind of an 
operation.
    Ambassador Taylor. Mr. Chairman, I would say, I would be 
interested in the fellow panelists, I would say Mr. Putin would 
like to have instability in Ukraine so that it cannot pursue 
the movement toward Europe, movement toward European 
institutions, that its President, elected overwhelmingly, its 
people in polls indicate that they would like to do. He would 
like to cause that instability and is fomenting that 
instability in Eastern Ukraine.
    Mr. Royce. I would like to hear the take on every member on 
the panel.
    Mr. Aron. If I may, could I read again from my testimony?
    Mr. Royce. Sure, Dr. Aron, go ahead.
    Mr. Aron. From the moment the regime of Viktor Yanukovich 
was overthrown in Kiev in the end of February, Russia, that is 
Vladimir Putin, has pursued three strategic goals. First, to 
punish, humiliate, destabilize, if possible, dismember, and 
ultimately derail a Europe-bound Ukraine. Second, to prevent 
the West from imposing meaningful, biting sanctions. And third, 
to continue to solidify Mr. Putin's domestic political base by 
rallying it around the flag.
    And I also noted that from my point of view, of somebody 
who studies Russian politics, I think the third goal is the 
most important one, because Putin's popularity, trust in him, 
and most importantly the desire to see him as reelected as 
President in 2018, by all objective public opinion polls were 
at record lows at the end of 2013. Now all of those indicators 
are at record high. That of course is not Russia's privileges. 
Countries at war rally around the leader. And I think these 
three goals will continue to motivate Putin.
    And which is why, answering Mr. Chairman's call to reach 
the settlement with Russia, I think we should be realistic 
about what the goals are. And I think that settlement could be 
reached, but that would require Vladimir Putin to change the 
strategy. The problem with changing the strategy is that it is 
so now intimately and centrally tied to the legitimacy and 
popularity of his regime that it would be extremely hard for 
him to change the course.
    Mr. Royce. And for the remaining two speakers, I mean, 
watching Russian television and watching this projection of 
this image, they are beating you, they are beating ethnic 
Russian speakers, right, that is the theme. But it is not just 
the theme in Ukraine, it is the theme in the former Soviet 
states. You see this broadcast into other states, in Central 
Asia and in the Baltics and in Eastern Europe. So that is the 
other part of my question. It is not just that this message is 
directed in Ukraine, it is directed to Russian speakers who are 
listening across the----
    Mr. Aron. I think you are absolutely right. I had a 
colleague returning recently from Kazakhstan.
    Mr. Royce. Yes.
    Mr. Aron. And as you know, northern Kazakhstan----
    Mr. Royce. Right.
    Mr. Aron [continuing]. Is essentially ethnic Russian. And 
like Ukraine, Kazakhstan did not exist until the beginning of 
the Soviet Union. So Putin could say, as he said in his fiery 
speech following the annexation of Crimea on March 18th of this 
year to the joint session of the Federal Assembly, which is the 
Russian Parliament, he could say, well, there was no 
Kazakhstan. Those were all Russian lands. He said that about 
Ukraine.
    Mr. Royce. No. I followed that. But I also followed this 
story out of Russia that the Ukrainians had supposedly 
crucified a 3-year-old boy and drug his mother behind a tank. 
This kind of rhetoric is designed to fire up ethnic Russians to 
a point where they are thinking emotionally rather than 
logically.
    And it strikes me that because this is going on, not just 
in Ukraine but elsewhere, it is very important we engage with 
broadcasting some kind of surrogate--like we did with Radio 
Free Europe/Radio Liberty in the day when we did it well, we 
need something that just broadcasts in perspective, a wider 
perspective on this. They are fueling a rage here which already 
has led to the downing of one jetliner by having inexperienced 
separatists who want to wage war, who shot down, I guess, 
probably 14 planes by now. But that kind of anger that is being 
generated is going to be a real problem for the region.
    Mr. Salvia. On the question of what Putin would be seeking 
in Ukraine, I think certainly he wants an agreement on 
autonomy. In other words, let's put it this way, I think the 
last thing he wants to do is introduce Russian forces into the 
country. I think that would be a disaster for him. I think it 
would be a costly, costly, costly, costly mistake, just in 
terms of financing it. But politically it would be even more 
horrendous in terms of poisoning his relationship with Europe, 
I think in terms of poisoning his relations with Kiev, because 
ultimately Russia has to have some kind of relationship with 
Kiev, once all this blows over, when they get back to some kind 
of normalcy.
    So I don't think he wants to do that. I think what he would 
like to have is some kind of a negotiated thing--I think he has 
indicated this--an agreement on autonomy, widespread autonomy 
for the various regions of Ukraine, and things that would take 
Ukraine out of the equation as some kind of a problem for 
Russia. In other words, making non-NATO membership part of the 
Constitution--neutrality or non-aligned status--things like 
agreement on language rights, so that language rights are 
protected.
    Mr. Royce. But all of that would be done by Poroshenko 
anyway. Poroshenko is in support of language rights, it is very 
clear.
    Mr. Salvia. Yes.
    Mr. Royce. And certainly on the NATO issue as well.
    But, anyway, my time has expired. And thank you.
    Mr. Rohrabacher. And thank you for joining us, Mr. 
Chairman.
    Whereas there aren't any, with permission, we could go 
straight to Judge Poe.
    Mr. Poe. Thank the chairman.
    Thank you, gentlemen, for being here.
    I want to side my remarks first with the comments from Mr. 
Keating. It is always good to know the background of witnesses 
when you are asking witnesses questions to see if there is any 
motive.
    With that said, I would like to address the issues that I 
talked about in my opening statement, the broader issue, not 
just the airplane that was shot down, criminally, yes. Hold 
those people accountable. But going back to what Dr. Aron has 
said about the motives, the intent, rather, the intent of Putin 
and the Russians, long-term intent. A statement was made that 
Russians don't want to put troops in Ukraine because it is 
expensive. They sure didn't have any trouble putting troops in 
Georgia, and they are still there.
    Mr. Brzezinski, what do you see as the longer-term goal of 
Putin? I, too, believe that it is nationalistic. The Russians 
like this invasion of Ukraine. What is it, 40, 50 percent of 
them support the invasion or support the Russian movement? 
Putin backs off a little, maybe negotiates with the West, does 
that not look like weakness to the Russian people? I don't 
know. I am asking your opinion on long-term goal.
    I talked to Moldavian members of Parliament. They think 
they are next. Maybe not today, maybe not tomorrow, but some 
day. They think they are next. And of course Poland has always 
got the problem with the Russians.
    Are these fears of Latvia and some of these other countries 
that they have expressed to Members of Congress, it is not real 
fears, or is there some substance to Putin's long-term goal, 
which I think is to make the Russian empire bigger? Would you 
weigh in on that, please?
    Mr. Brzezinski. Yes, sir, Chairman Poe.
    First, I would point out that the Russians are not just in 
Georgia, they are in Ukraine. There are 20,000 to 30,000 
Russian troops occupying Crimea. Russian special forces are 
leading and fighting in Eastern Ukraine. Russian political 
operatives are the head of the separatist republics in Russia. 
So Russia is in Ukraine militarily and illegitimately in 
political ways.
    What is President Putin's goal? President Putin's goal is 
essentially a revanchist vision. He wants to reestablish 
Russian greatness. And he finds that greatness----
    Mr. Poe. Sort of like the czar.
    Mr. Brzezinski. Sort of like the czar. Like Czar Peter.
    Mr. Poe. Czar Vladimir, Czar Vladimir Putin.
    Mr. Brzezinski. His vision is to recreate Russian influence 
over the sphere of the former Soviet Union, including the 
Warsaw Pact, for that matter. And what is particularly 
dangerous about that vision is he is reintroducing into Europe 
the principle of ethnic sovereignty. That he, that Russia, has 
a unilateral right to go in and redraw borders simply because 
there are ethnic Russians living across those borders. That is 
incredibly dangerous, that principle.
    Mr. Poe. That is his so-called legal justification for 
invading his neighbors. Would you say that is right?
    Mr. Brzezinski. That is correct.
    Mr. Poe. He is not really going to promote humanitarian 
goals in Eastern Ukraine, he is going over there to take back 
Ukraine and make it part of Russia. I mean, is that 
oversimplification?
    Mr. Brzezinski. I think that is pretty accurate. I would 
put his priorities first in terms specifically with Ukraine is 
to subordinate Ukraine.
    Mr. Poe. Long term, I have just a few minutes left, long 
term what do you see?
    Mr. Brzezinski. Subordinate Ukraine under Russian 
influence. If he can't do that, keep Ukraine unstable, 
destabilized, so it can't go to the West and in a minimum carve 
up parts of Ukraine that are strategically important to him, 
including Eastern Ukraine and Southern Ukraine.
    Mr. Poe. Mr. Taylor, weigh in on the same question. Long 
term, what do you see Putin's goals are?
    Ambassador Taylor. Mr. Chairman, I don't think he is that 
strategic of a thinker. I think he is an opportunist. He saw an 
opportunity to go into Crimea and he did. He could do it and he 
did. He did it easily, quietly, illegally, totally illegally. I 
don't think it is a legal rationale that he is trying to 
establish about protecting Russians. That is not legal. Indeed, 
that led to World War I when the Serbians tried to indicate----
    Mr. Poe. I am not saying he is right. He is trying to 
justify it to the world.
    Ambassador Taylor. He is trying to justify it, but it is 
not a legal justification. He may be trying make that case.
    So in answer to your question, Mr. Chairman, I don't know 
what his long-term goals are. I am not sure he does. I think he 
is taking advantage of weakness. He is taking advantage of the 
fact that, so far, the West has not confronted him, and he is 
going to move until we confront him.
    Mr. Poe. Dr. Aron, long-term goals. I appreciate your three 
bullet points, but what do you see down the road?
    Mr. Aron. Well, even a longer-term, wider context. A year 
ago I published an article in Foreign Affairs called ``The 
Putin Doctrine.'' And I think it is very simple. It is to 
recover geostrategic, economic, political, and cultural assets 
lost in the fall of the Soviet Union.
    In other words, he does not want to recreate the Soviet 
Union. It is silly, it is costly, it is risky. But he wants to 
recreate or take control of the assets inside the country. He 
already did. Over politics. Over the key aspects of the 
economy, oil and gas. Over culture.
    And in the broader sense, I think, in the territory of the 
former Soviet Union, is to establish Russia as being in 
control, not just hegemonic power, but in control of the former 
Soviet states. That does not involve occupation of every former 
Soviet state. It involves, as Ian pointed out, it involves 
keeping those states' foreign policies, and sometimes even 
domestic policies, bound to approval or disapproval from 
Moscow.
    Mr. Poe. Let me interrupt there, since I am out of time.
    Mr. Aron. I am done. Thank you.
    Mr. Poe. So he would use a bigger approach than just 
militarily. He could use economic approach, like he is using in 
Eastern Europe and part of Western Europe with the monopoly of 
Gazprom, for example, because there is no competition. He can 
shut off the gas in Ukraine, which he has done, and I was there 
when he did it in the winter, and it was cold and it was dark.
    So that opportunity, United States, Western powers who 
think that this aggression should be stopped, maybe we should 
have some responses economically, as well as helping out 
Ukrainians militarily with helping them solve their own 
security crisis. Would you agree with that or not?
    Mr. Aron. In connection with economic measures, and also 
apparently there are going to be some serious sanctions rolled 
out, a word of caution. Precisely because, as I said in my 
testimony, war in Ukraine is a domestic Russian political 
issue. It has become one. It is at the center of this regime. 
It is responsible for a great deal of legitimacy and 
popularity. Don't expect sanctions to work quickly.
    In fact, in the short term, I think they are going to cause 
Putin doubling down, if I know the man correctly, doubling down 
in Ukraine, rallying around the flag, his popularity even going 
higher. Long term, medium term, probably, probably they will 
force him to make choices. But don't oversell economic 
sanctions for now.
    Mr. Poe. I yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor.
    Next we have Representative Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for having this 
important hearing.
    As I sat here and listened to the testimony and the 
questioning, I have to ask, what is the correct level of 
outrage from the free world to this tragedy? And have we seen 
it? We see global protest over Israel defending its right to 
exist and its self-defense, but we don't see global outrage 
over the use of a weapon of war to shoot down a commercial 
airliner.
    And think about this: 300, plus or minus, passengers lost 
their lives, basically one-third of the total lives lost in 
Gaza, where is the world outrage? This is rhetorical, but what 
is the appropriate response from the free world? And what is, 
we will just say, the historic leader of the free world, what 
is the appropriate response to this egregious act of aggression 
which cost the lives, truly innocent lives on a commercial 
airliner?
    This act was committed with a very sophisticated weapon. If 
they could hold this sign back up real quick. This was an SA-11 
missile, a weapon of war, and a sophisticated launcher. This 
isn't Charlie Wilson's war with Afghanis running up with 
shoulder-fired stingers, fire-and-forget missiles. This has 
sophisticated radar. It takes sophisticated training in order 
to operate it. This wasn't some rebel that just happened to 
seize a weapon on the battlefield and use to it shoot down an 
airliner. I believe it took a little bit more than that. I 
believe Russia was involved in some way. This isn't a fire-and-
forget weapon.
    And so I have to ask Mr. Brzezinski, is it likely that 
Russia would ever let such powerful weapons as this SA-11 out 
of its full control?
    Mr. Brzezinski. I think it is pretty clear it did. I mean, 
all reports indicate that Russia did transfer SA-11s to the 
separatists. I think it is an incredibly irresponsible act. Not 
only did a system like that put innocent airliners at risk, but 
it probably put Russians forces at risk. So I am stunned, but 
it is clear he did it.
    Mr. Duncan. I am, too. I really am stunned that they didn't 
verify the target before they pulled the trigger. But that is 
sort of a debatable issue.
    Doesn't that support the notion that Russia must have been 
aware what it was being used for?
    Mr. Brzezinski. It is not clear exactly what the command-
and-control arrangements were over those systems. But what is 
clear is that the transfer of the SA-11s was part and parcel of 
a broader effort by the Russians to intensify their support to 
the separatists. After each set of sanctions there has been an 
incremental increase in kind of material support and personnel 
support Russia has provided the separatists. It really 
intensified in the last couple of weeks where we have seen 
columns of APCs, mortars, and tanks cross the Russian-Ukrainian 
border into the separatists.
    And I think the Russians are being driven to do this in 
part because they see the separatists failing. So what they are 
trying do right now is desperately consolidate the territory 
the separatists have so they can lock this into a frozen 
conflict. And that would, one, perpetuate their ability to keep 
Ukraine destabilized. And if Ukraine is unstable, it is not 
going to be able to push its way forward into Europe.
    Mr. Duncan. So let me ask you this. What is the correct 
response? How should the Western world, the free world respond 
to this egregious act?
    Mr. Brzezinski. We have to act, we have to respond with 
resolve and determination. A long time ago, we should have been 
imposing sectoral sanctions on Russia, body slamming the 
Russian economy, hitting its financial and energy sectors in 
particular. That hasn't been done. We have had incremental 
sanctions, we have had hesitancy. Our military actions have 
been symbolic at best--a company in Poland, a company in the 
Baltics, a few planes here.
    The Russians mobilized over 100,000 people on the western 
military district, the western frontier, so to speak, when they 
began their invasion of Ukraine. That is how serious they were. 
The West hasn't responded that way, and the result has been 
Putin has been continuously emboldened in his effort to 
subordinate and carve up Ukraine.
    Mr. Duncan. I visited Europe. I met with the Europeans last 
year. They have been concerned for well over a year at their 
reliance on Russian gas. Ukraine is definitely concerned about 
its reliance on gas.
    Can't this administration and this government and the 
Western world with the expedition of LNG terminals and the 
export of natural gas, which we have an abundance of, not send 
the right economic signal that Europe is going to lessen its 
dependence on a foreign source of energy, Ukraine is going to 
end its dependence on a foreign source of energy, other than 
the United States? Wouldn't that send the right signal?
    Mr. Brzezinski. Yes, sir. Two points. One, LNG would be an 
important long-term effort to help Ukraine and for that matter 
Central Europe wean itself from its dependency upon Russian gas 
exports. In the near term it would be a strong political signal 
and it would create momentum that would kind of facilitate 
investment to build the necessary infrastructure for that.
    The second point I would make is what amazes me about the 
West's response economically to this invasion in the Ukraine is 
the weakness of that response in light of the power balance 
between the West and Russia. The EU is a $12-trillion economy. 
It has got a $12-trillion annual GDP. It is globally 
integrated. It gets approximately 30 percent of its imported 
gas, not total use of gas, but imported gas from Russia.
    Russia is a $2-trillion gas station. It has only got one 
customer, the EU. It is dependent upon primarily the EU for 
foreign investment. The EU is also backed by a $16-trillion 
U.S. economy. So it is amazing how a $2-trillion gas station 
that is on weak legs can bully around the West, which has well 
over 6 times its economic magnitude.
    I can only explain that by strategic shortsightedness, 
moral fecklessness, to allow a major European country to be 
walked over, invaded by Russia, and corporate greed.
    Mr. Duncan. Well, thank you for that.
    Chairman Poe, I am sorry that you were cold in Ukraine, but 
we cold take care of that by exporting gas from the United 
States to friends and allies around the world who want U.S. gas 
and lessen their dependence on Russia. And so you are spot on. 
The energy economics and energy politics play into this. And I 
think it is the right thing to do.
    Mr. Poe. I agree with you. Amen.
    Mr. Rohrabacher. Thank you very much.
    Mr. Duncan. I yield back.
    Mr. Rohrabacher. Now I would like to turn to Brad Sherman.
    Mr. Sherman. I have a question, but it would also apply to 
some of my colleagues from gas- and oil-producing States. But I 
will direct it to Mr. Brzezinski.
    Okay. We pay about $4 or $5 a unit for natural gas here. 
They pay $10 in Europe. And liquefied natural gas is sold in 
Asia for $15. I don't know if any of my colleagues from oil-
producing States can explain which companies headquartered in 
their districts want to sell the gas for $10 in Europe and 
forgo the $15 they can get in Asia.
    But the question for the witness is, do you sense that the 
American taxpayer, or the German taxpayer, or the German 
consumer wants to pay that additional $5?
    Mr. Brzezinski. For gas from the United States, sir?
    Mr. Sherman. Yes.
    Mr. Brzezinski. Probably not. But my sense is that LNG 
exports by the United States would be uninhibited, would 
probably flow mostly to Asia. There is no question about that. 
But the LNG market is increasingly globalized. That flow of 
U.S. LNG into Asia pushes excess, other LNG from other sources, 
over to Europe. And, in fact, it has already been the case to a 
certain degree.
    Mr. Sherman. Again, the world price is $15 for liquefied 
natural gas. It is $10 for Russian piped natural gas. Who is 
going to pay the extra $5?
    Mr. Brzezinski. They will always go to the cheaper gas. But 
the benefits, the geopolitical benefits, geoeconomic benefits 
of uninhibited U.S.----
    Mr. Sherman. Who pays? Are the Germans lining up to say, 
damn it, we want to pay Japanese prices rather than Russian 
prices, to pay the same price as Japan for liquefied natural 
gas? They could get liquefied natural gas from Qatar and other 
Arab states and they don't take a single cubic foot of it 
because it costs 50 percent more than the Russian natural gas.
    So if the German Government and the German people don't 
want to pay the extra money, are you suggesting that the United 
States taxpayer pay the difference?
    Mr. Brzezinski. No.
    Mr. Sherman. Okay.
    Let me go on to another series of questions. Okay.
    Rebels had SA-11s or similar technology. They shot down the 
plane. They thought they were shooting down a Ukrainian plane. 
It seems to be viewed as almost cut and dry that they must have 
gotten the SA-11s as a gift from Moscow. But much of their 
other weaponry they have seized on the battlefield or just kind 
of walked into at military bases and taken equipment owned by 
the Ukrainian Government.
    So did the Ukrainian Government have SA-11s or similar 
technology capable of, even if it had to be a lucky shot, but 
capable of perhaps hitting a plane at 33,000 square feet? Does 
the Ukraine have that technology? Mr. Taylor?
    Ambassador Taylor. Certainly, they have that technology. 
But they were nowhere near the area.
    Mr. Sherman. No. Well, are we certain that none of that 
technology fell into rebel hands at any time during this 
conflict, including knowing that the prior government of the 
Ukraine was pro-Russian and had most of its support on the same 
areas where the separatists enjoy support?
    Ambassador Taylor. Mr. Sherman, I think it is very clear 
that the separatists fired the weapon.
    Mr. Sherman. That is not my question.
    Ambassador Taylor. Where it came from is your question. And 
I don't think we know precisely which piece actually came from 
the Ukrainians.
    Mr. Sherman. But are you certain that not a----
    Ambassador Taylor. What we have seen has come across the 
border.
    Mr. Sherman. Some came across the border. Were others taken 
from the Ukrainian Government? Do we have a full accounting 
from the Ukrainian Government, hey, at separation of the Soviet 
Union, we had so many SA-11 systems, we acquired so many 
systems, we can account for all of those systems? Or are we 
just kind of taking it out of anger that you have these systems 
both in the Ukraine and in Russia, and it must have been the 
Russian systems that the separatists got their hand on?
    Mr. Salvia.
    Mr. Salvia. I am afraid I just don't know the answer to 
that. Sorry.
    Mr. Sherman. Okay. My time has expired. Thank you.
    Mr. Rohrabacher. Well, I want to thank our witnesses today. 
What we will have now is just a summary from the chairmen and 
ranking members of the committees of jurisdiction. And we will 
start with Judge Poe.
    Mr. Poe. I thank the chairman.
    Thanks again, gentlemen, for being here.
    It just seems to me that this whole operation in Ukraine 
and other places is driven by Putin. He is doing it, as you 
have stated, to help himself politically back home. It does 
sell. It does raise the Russian flag at home. And his quest for 
aggression--aggression, I think that is the best way to call 
this activity--he wants influence back in areas that belonged 
to the Soviet Union. But his motive goes back further. I think 
it goes back to the days of the czar. That is the way I see 
this.
    The U.S., West response has been weak, and it is shown 
because it hasn't stopped the aggression. The United States, 
along with the West, freedom-loving folks, need to impose 
sanctions that actually work. And we also should, I think, help 
the Ukrainians defend their own country.
    I do believe that we should open up markets and give 
Western Europe, Eastern Europe alternatives to natural gas. In 
answer to the ranking member's question, yes, there is a 
specific company in Houston, Texas, Accelerated Energy, that 
wants to sell natural gas to the Ukrainians and will be able to 
do that within a year if they could get permission to do so.
    We are flaring off natural gas in Texas and in the Dakotas 
to the amount of 1 million homes losing energy because we have 
so much natural gas. It is a world market. But they want the 
opportunity to sell more natural gas on the world market. But I 
think that it is part of the long-range strategy to buttress 
the aggression, not just with helping Ukraine militarily, but 
helping alternatives economically, including those economic.
    Putin has not been stopped. I don't know that he will be 
stopped unless we actually want some answers and some results 
from the aggression. I think his plan is long term. But 
opportunities, when they arise, he will take advantage of 
those. So that is the way I see it.
    I will yield back to the chairman of the European 
Committee.
    Mr. Rohrabacher. Thank you very much.
    And, Mr. Sherman, do you have a summary that you would like 
to offer?
    Mr. Sherman. As to the export of natural gas, the major 
reason, the major obstacle is the enormous economic cost of 
liquefying, transporting, and then regasifying the gas. There 
is a lot of natural gas in the Arab world. The Arabs will sell 
it for the highest price. They are driven by the exact same 
capitalist calculations as American oil companies. They sell it 
all to Asia and none to Europe.
    As to the fact that you need permission to export natural 
gas, you don't need permission to export it to any country that 
has a free trade treatment with the United States, including 
South Korea. And in addition, the administration has licensed 
some export projects as being in the interests of the United 
States.
    I do not think that those who liquefy natural gas want to 
charge less than $15 a unit for it. And I don't think there is 
anybody in Europe, EU or otherwise, that wants to pay more than 
the Russian price, which is basically $10.
    Looking at the Middle East as an analogy, we are urging 
Maliki to make the best possible offer to the Sunnis, even 
though you could probably argue that 51 percent of the Iraqi 
people would, if they had their druthers, give the Sunnis 
nothing.
    We need to urge Kiev to make the best possible offer to 
those who want autonomy. And that includes protection of the 
Russian language, that includes electing the governors of the 
oblasts, that includes local budgetary control, it includes the 
other elements that are part of the reasonable, nonseparatist 
political parties that are seeking autonomy for the various 
regions. And it is not enough to make vague statements, we need 
specifics.
    And I yield back.
    Mr. Rohrabacher. And Mr. Keating.
    Mr. Keating. Mr. Chairman, I think it is clear that this 
hearing has made a couple of major points, one of them being 
that this issue is not discrete to Ukraine. This is indeed an 
issue of high prominence to all of Europe in the future, and 
that includes efforts to establish rule of law, that includes 
efforts for economic growth and democracy.
    And it is also clear, I think, that much of Russia's 
aggression isn't quite as strategic in a long-term sense as it 
is reactionary. And one of the things that bears watching is 
what signals the European countries and the U.S. are giving 
back, because I think that will determine what actions Russia 
takes in the future as well.
    And along those lines, I think we also understand the 
importance of our economic progress together. And by that, even 
though it wasn't mentioned today, I look at enhancement of the 
TTIP agreement, the free trade agreement with Europe as a very 
important object that we should continue to work forward with, 
because it is within that economic strength that we will be 
able to stabilize and move Europe forward. And that is our best 
way of countering these kind of senseless acts of aggression.
    Yield back, Mr. Chairman.
    Mr. Rohrabacher. Well, thank you very much.
    Well, I think this was a very worthwhile hearing. I am 
sorry that we didn't actually get more specific suggestions, 
although I think that we have looked, taken a look at the 
situation a little closer than has been looked at in the last 
month or two as this crisis seems to be getting worse and 
worse.
    Let me just note, historically I have spent most of my life 
fighting communism and fighting the Soviet Union. And let me 
just note, same is true of Mr. Salvia, who was the executive 
assistant to the president for Radio Free Europe and Radio 
Liberty between 1988 and 1993.
    I always think it is best to go specifically at the issues 
at hand, but people do have a right, and the ranking member 
certainly has a right to question the validity of witnesses. 
But I found you a very credible witness, and know of your 
background and the things you have done to help defeat 
communism during my time with the Reagan administration and 
before and after.
    Let me note that there seem to be some people in the United 
States who are hellbent to reignite the Cold War. I mean, they 
feel more comfortable with trying to go at Russia. After the 
Soviet Union fell, there was a tremendous potential to making 
Russia our friend. A tremendous potential. They withdrew their 
troops from Eastern Europe, the Russians were open to all kinds 
of interacting and becoming part of the world community. And a 
tremendous opportunity was squandered.
    Over the years there have been people, and I believe that, 
unfortunately, it has a lot to do with the political forces in 
our country that were pandering to the people who had a grudge 
against Russia. And I am talking about there is obviously a 
justified grudge that the people of Eastern Europe have had 
against Russia because under communism Russia committed so many 
crimes against those people, whether it be the Poles, the 
Czechs, the Bulgarians, or the Ukrainians in particular. We 
know the millions of people who lost their lives during the 
1900s because the Russians came in with their communism, and 
millions of people died horrible deaths, Ukrainian people. And 
so we understand that there is a grudge out there blaming the 
Russian people for communism. That is understandable.
    But our job when the Soviet Union collapsed and people 
turned to become Russia, a democratic Russia, I think it was 
our job to try to not pay attention to those grudge and pander 
to those people who wanted to get even, but instead to try to 
build a new world.
    And I don't think we did. I think we decided that there 
would be allies made politically, locally, where my Polish 
friends, my Ukrainian friends who can't understand why I would 
want to make peace with Russia now, even after I spent my whole 
life fighting them.
    I think we lost a great opportunity there. And maybe it is 
not lost. But we have turned what was a potentially good friend 
into an adversary. And there is no other way to look at Russia 
now. They are an adversary. And what I am afraid of is now we 
are going to turn an adversary into an enemy, and we don't want 
that. I don't want that. I hope the American people, I don't 
think they do either.
    I would hope that the testimony at the hearing today has at 
least motivated some people to reach out to each other. I would 
hope that the points about making the best possible offer by 
the Government of Ukraine, should be making the best possible 
offer to the separatists to try to find a way to end that 
violence, and that we should be supporting that type of 
positive move.
    And I would hope that after this hearing today that we try 
to take a look at what is going on with honesty and with a goal 
of creating a more peaceful region of that part of the world 
and thus a more peaceful world, rather than a belligerent 
approach to this, what is going on, that will end up creating a 
wholesale enemy out of the Russian people when right now we can 
possibly work with them to create some peace and offer some 
honest working together and cooperation toward that goal.
    So with that said, I want to thank the witnesses. Thank you 
all very much. And thank my ranking member for a spirited, a 
very spirited time period here. Thank you all. And this hearing 
is now adjourned.
    [Whereupon, at 12:16 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Material submitted for the record by the Honorable William Keating, a 
   Representative in Congress from the Commonwealth of Massachusetts

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
